4'

                                                     NATIONAL SCIENCE FOUNDATION
                                                      OFFICE OF INSPECTOR GENERAL
                                                       OFFICE OF INVESTIGATIONS

                                               CLOSEOUT MEMORANDUM

Case Number: 102010002                                                                         Page 1 of 1



          This case was opened on 01/24/02 based on the 1/14/02receipt of an anonymous letter concerning a
                                         '"
          professor of polymer science and stated that he has been misusing NSF funds." The writer claims
          to have: "documentation and other forms of evidence that prove wrongdoing on his part." The writer
          lists two awards2 and indicates that we "may want to pay particular attention to how monies were
          actually spent and whether purchased items truly exist." Only one of the two awards alluded to is an
          NSF ward^. The PI also received four supplements on this grant from NSF.

          Although the allegations lack specificity, we requested financial information fi-omthe University and
          reviewed the resulting printouts. Nothing in the printouts seems particularly egregious or raises
          questions regarding the appropriate use of the funds. We referred the case to Audit as a
                                     Without any specific information, there is no way to substantiate the
          allegation.



         Accordingly, this case is closed.




                             faculty member at the




                             Agent
                                                     -Attorney               Supervisor
                                                                                          month award for



                                                                                                        AIGI

     Sign 1 date
